<html>
<title> - THE EXPANDING U.S.-KOREA ALLIANCE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   THE EXPANDING U.S.-KOREA ALLIANCE

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 26, 2011

                               __________

                           Serial No. 112-71

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
70-948                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0760776847647274736f626b772964686a29">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                 DONALD A. MANZULLO, Illinois, Chairman
RON PAUL, Texas                      ENI F.H. FALEOMAVAEGA, American 
BILL JOHNSON, Ohio                       Samoa
DAN BURTON, Indiana                  FREDERICA WILSON, Florida
EDWARD R. ROYCE, California          GARY L. ACKERMAN, New York
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MIKE KELLY, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          DENNIS CARDOZA, California


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ambassador Chris Hill, dean, Josef Korbel School of International 
  Studies, University of Denver..................................     9
Mr. Bruce Klingner, senior research fellow for Northeast Asia, 
  The Heritage Foundation........................................    16
Ms. Tami Overby, president, U.S.-Korea Business Council..........    30
Abraham Kim, Ph.D., vice president, Korea Economic Institute.....    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois, and chairman, Subcommittee on Asia 
  and the Pacific: Prepared statement............................     3
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement........................     8
Ambassador Chris Hill: Prepared statement........................    12
Mr. Bruce Klingner: Prepared statement...........................    18
Ms. Tami Overby: Prepared statement..............................    32
Abraham Kim, Ph.D.: Prepared statement...........................    39

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
Question submitted for the record by the Honorable Edward R. 
  Royce, a Representative in Congress from the State of 
  California, and written response from Ms. Tami Overby..........    68


                   THE EXPANDING U.S.-KOREA ALLIANCE

                              ----------                              


                      WEDNESDAY, OCTOBER 26, 2011

                  House of Representatives,
              Subcommittee on Asia and the Pacific,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Donald A. 
Manzullo (chairman of the subcommittee) presiding.
    Mr. Manzullo. The Subcommittee on Asia and the Pacific will 
now come to order.
    On October 12th of 2011, Congress passed the U.S.-Korea 
Free Trade Agreement, marking the dawn of a new era in U.S.-
South Korea relations. As America's largest free trade 
agreement in Asia, the KORUS Free Trade Agreement promises more 
export opportunities for U.S. businesses and manufacturers than 
ever before. In a relationship that has ebbed and flowed over 
the past few decades, President Lee's visit to the U.S. is 
testament that this relationship is the strongest it has ever 
been.
    Today's hearing is both timely and important in addressing 
the impact of expanded U.S.-South Korea relations in terms of 
peace, prosperity, and security in the Asia-Pacific region. The 
16th Congressional District of Illinois, which I have the honor 
of representing, depends heavily on manufacturing for its 
livelihood. Many of the products produced in the district are 
exported around the world. The KORUS Free Trade Agreement 
promises to boost existing exports, with economists estimating 
as much as $11 billion in export growth. The Agreement will 
also provide American companies important access to South 
Korea's $1 trillion market and boost the overall level of two-
way trade beyond the $87 billion value recorded in 2010.
    Here in the United States, we are blessed with the fact 
that 1.5 million Americans of Korean descent call this nation 
``home.'' They are an integral part of the fabric of American 
society. Many Korean-Americans are small business owners, and 
their pursuit of the American dream contributes greatly to the 
U.S. economy.
    In November 2008, South Korea qualified to join the group 
of countries eligible to participate in our visa waiver 
program. Long overdue, South Korean citizens, along with our 
Japanese and Singaporean friends, now enjoy visa-free travel to 
the U.S. for tourism and business for up to 90 days. The 
ability to easily travel back and forth is a key to welcoming 
Korean investment and businesses into the United States.
    The U.S.-Korea relationship has grown over time, beyond a 
security alliance to one of incredible depth and 
sophistication. I'll never forget the day when former 
Ambassador Lee Tae-Sik made a special visit to the 16th 
Congressional District in Illinois to personally thank American 
Veterans of the Korean War for the efforts to defend his 
country and protect his people. As I stood watching this take 
place, I could not but be overcome with great respect and 
gratitude for the friendship our two nations share. Several 
veterans told me that this was the first time anybody had ever 
said ``thank you'' for helping them achieve freedom in their 
country.
    While South Korea embraces freedom, democracy, and respect 
for human rights, her neighbor to the north continues to shock 
the world with threats of weapons of mass destruction and 
violent provocations. In March 2010, North Korea sent tremors 
when it sunk a South Korean naval vessel, the Cheonan, killing 
46 sailors. It followed this attack by shelling Yeonpyeong 
Island in November of the same year. The international 
community was outraged further when China not only remained 
silent, but also rewarded North Korea with further food and 
fuel assistance.
    Just this past week, the Chinese Ambassador to North Korea 
announced that China and North Korea are entering a new era of 
vigorous development and will make unremitted efforts to 
consolidate and develop their friendship further. North Korea 
is one of the most repressive and hostile regimes on the 
planet. North Korea is in a league of its own when it comes to 
the level of weapons proliferation, human rights violations, 
and illicit activities carried out by the regime.
    The Kim Jong Il regime is starving its own people and at 
the same time it remains a sponsor of international terrorism. 
Its close relationship with Syria, Iran, and Burma add to this 
concern. It's important that we continue to work with South 
Korea on a joint strategic plan and do not offer concessions. 
Our collective security is being threatened and we cannot 
tolerate this continued behavior.
    In his address to Congress, President Lee expressed the 
sentiments of the South Korean people best when he stated 
``America is our friend and neighbor.'' Indeed, those words 
ring true now more than ever in a 60-year partnership that saw 
South Korea transform from poverty and dictatorship to the 
prosperous and thriving democracy we see today. America played 
a direct role in Korea's epic success. I concur with President 
Lee that our countries have one of the closest, most important 
economic relationships in the world. I also agree that when we 
work together, we win together.
    The future of our alliance is bright. I thank my Korean 
friends for their steadfast friendship and hope our 
relationship continues to evolve to benefit generations of 
Americans and Koreans alike.
    [The prepeared statement of Mr. Manzullo follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. I now recognize Ranking Member Faleomavaega 
for his opening statement. You just got back from home, 50 
hours in the air or something like that?
    Mr. Faleomavaega. You don't want to know, Mr. Chairman.
    Mr. Manzullo. Okay, but I'm glad you're here. If you doze, 
we'll understand why.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I want to 
commend you and your leadership in calling this very important 
hearing this afternoon. But first of all, I do want to 
recognize a dear friend who is here with us and is one of our 
star witnesses, my good friend, the former Assistant Secretary 
of East Asian and Pacific Affairs, Chris Hill, and also one of 
our standard bearers in negotiating and trying to negotiate 
with North Korea for all these years until he was transferred 
to another important job on behalf of our Government. So I do 
want to personally welcome Chris for his presence here in our 
subcommittee.
    Also, Mr. Chairman, I think it's only fair that I say how 
wonderful it's been in welcoming His Excellency, the President 
of South Korea, not only by the White House and President 
Obama, but also the fact that he was given the opportunity to 
address the joint session of Congress to tell the world how 
much we feel and our close relationship with the good people 
and the leaders of South Korea. I think it's very indicative of 
President Obama's initiative and his leadership in telling our 
friends in the Asian region that South Korea means a lot to us, 
not only militarily, but in so many other ways.
    I also want to commend personally the outstanding services 
and certainly his friendship, the former Prime Minister of 
South Korea who now is South Korea's Ambassador in the United 
States, Ambassador Han Duk-soo, who did an outstanding job in 
also helping and not only educating, but giving our members a 
better understanding of how important it is to pass the KORUS 
Free Trade Agreement. And I'm so happy that we finally have 
been able to pass that very important legislation and to 
establish an excellent trade relationship with our friends in 
South Korea.
    Also to note personally, my good friend the chairman of the 
Hanwha Group, Chairman Kim Seung Yeon, who also was very much 
involved and personally lending his support for the importance 
of passage of this legislation.
    Again, Mr. Chairman, I thank you for holding this hearing 
about expanding the U.S.-Korea alliance. Again, I commend the 
administration for the successful passage, as well as the 
colleagues in the Congress, in passing this free trade 
agreement that will create about 70,000 new jobs for our 
American workers. The U.S.-Korea Free Trade Agreement also 
promises to increase the U.S. Gross Domestic Product by $11 
billion, generate about $10 billion in new U.S. export annually 
which I think, I hope, will also create a positive development 
in your District, since your District is very famous for 
manufacturing.
    Now, the U.S. continues to be South Korea's third largest 
trading partner. South Korea is the United States' seventh 
largest trading partner. Last year, trade between the U.S. and 
South Korea totalled over $86 billion. Given the historic 
nature of the passage of the U.S.-Korea Free Trade Agreement 
this month, I want to publicly acknowledge the grass roots 
efforts of Mr. Dongsuk Kim, the founder and former president of 
the Korean-American Voters' Council. Mr. Kim gathered Korean-
American business leaders from all over the country to urge the 
Congress to pass the U.S.-Korea Free Trade Agreement. And I 
certainly applaud him for all that he has done for increasing 
not only an understanding, but also promoting our Korean-
American community which numbers well over 3 million of our 
fellow Americans living here in this great country, giving us a 
better sense of understanding and appreciation about tremendous 
contributions that our Korean-American community makes to our 
country.
    Mr. Thomas Kim, my dear friend, whose tireless efforts in 
representing the interests of the Korean Embassy here in the 
United States, all of us know him. I want to personally thank 
Tom for his efforts as well.
    On a personal note, I also want to say that I am sorry that 
I'm not acquainted with our other expert witnesses, but I look 
forward to hearing from their testimonies and again, Chris, 
good to see you. I don't know what you're doing out there in 
Denver, but I think this is where all the action is. But again, 
thank you for coming.
    And Mr. Chairman, thank you for your calling this hearing 
this afternoon. I yield back.
    [The prepared statement of Mr. Faleomavaega follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. I would like to introduce the witnesses. It's 
with great pleasure that we welcome Ambassador Chris Hill, a 
good friend of ours back to the Foreign Affairs Committee. Eni, 
Chris Hill and I are survivors of the New Zealand earthquake. 
You got caught in it and our delegation left Christchurch 2 
hours and 21 minutes before it hit. It really is good to see 
you.
    Ambassador Hill's long and distinguished career includes 
service as U.S. Ambassador to not one, but four countries: 
Macedonia, Poland, Korea, and Iraq. In between those tours as 
Ambassador, he managed to squeeze in tours as Assistant 
Secretary of State for East Asian and Pacific Affairs and as 
Senior Director of the National Security Council. Chris Hill's 
resume is well known. It's good to see you back here. He is 
presently dean of the Joseph Korbel School of International 
Studies at the University of Denver.
    Bruce Klingner is the senior research fellow for Northeast 
Asia at the Heritage Foundation's Asia Study Center. He joined 
Heritage in 2007 after 20 years in the intelligence community 
working for the Central Intelligence Agency and the Defense 
Intelligence Agency. In 1993, Bruce was selected as Chief of 
the CIA's Korea Branch focusing on North Korea. He later served 
as Deputy Division Chief for Korea of the CIA's Directorate of 
Intelligence where he was responsible for analyzing Korean 
political, military, and economic issues for the President and 
other senior policy makers.
    Tami Overby serves as vice president for Asia at the U.S. 
Chamber of Commerce. She's responsible for developing, 
promoting, and executing programs and policies related to U.S. 
trade and investment in Asia. Tami lived and worked in South 
Korea for 21 years prior to her present role. She received the 
Korean Order of Industrial Service Merit Award, two letters of 
citation, and is an honorary citizen of Seoul.
    Abraham Kim is vice president of the Korea Economic 
Institute and oversees the organization's research programs and 
publications. He's an expert on U.S.-Korea relations, trade and 
investment, North Korea, and regional security issues. Dr. Kim 
also directs KEI's Academy of Korean Policy Outreach, a KEI-
sponsored nonprofit organization focused on promoting Korea and 
its policy studies toward the United States. Prior to joining 
KEI, Dr. Kim was principal Korea analyst and research manager 
of government services at the Eurasia Group. Dr. Kim has also 
worked at the Science Application International Corporation and 
the Center for Strategic and International Studies.
    I recognize the distinguished witnesses for their opening 
statements. We try to keep it at 5 minutes. The light will go 
on there. The yellow light goes on when you have 1 minute to 
go.
    Let's start first with Ambassador Hill. It's good to see 
you here.

 STATEMENT OF AMBASSADOR CHRIS HILL, DEAN, JOSEF KORBEL SCHOOL 
         OF INTERNATIONAL STUDIES, UNIVERSITY OF DENVER

    Ambassador Hill. Thank you very much, Mr. Chairman, Mr. 
Faleomavaega. It's also a great pleasure to see you. It's a 
great pleasure to be back here in this committee where I have 
spent many hours of my life, my past life, in these 
discussions.
    I have a prepared text which with your permission I would 
like to read into the record or have entered into the record.
    Mr. Manzullo. Without objection, all the prepared 
statements of the witnesses will be made part of the record.
    Ambassador Hill. Mr. Chairman, for me, it's quite unusual 
because I wrote it myself and cleared it with nobody except my 
wife, so it's quite a change in my lifestyle here.
    But let me summarize from this and then of course, I will 
be happy to join with the others in taking questions. For a 
generation, Korea was known as a long and difficult war 
tempered by a long and as difficult peace. That has changed. 
Korea is now considered one of the world's great success 
stories with an economy that has become the envy of the world, 
a democracy that is one of the world's most successful, and a 
vibrant culture whose wave has reached the four corners of the 
globe. It is truly one of the great inspirations of our era.
    Against this enormous success, however, remains one of the 
world's great tragedies, the continued impoverishment and 
virtual enslavement of a third of the Korean people on the 
northern half of the peninsula. The tragedy of this division on 
the Korean peninsula is one of the saddest and most brutal of 
the great legacies of the 20th century.
    The United States is fortunate that out of these tragic 
historical circumstances, we've had the leadership in Congress, 
both among Democrats and Republicans and succeeding 
administrations now, spanning one dozen Presidents to 
understand the importance to our interest and the wisdom to 
stay close to the Republic of Korea, to be committed to its 
freedoms and its people and to count Korea among our most 
important alliances in the world.
    It is altogether fitting that in the last month that great 
alliance has now been strengthened by a free trade agreement 
that, as with other elements of our relationship, enjoy broad 
support between both our major parties and also among all of 
the Republic of Korea's major political formations. That free 
trade agreement rests on a broad and deep foundation that will 
endure. It's a foundation that will not only act to strengthen 
both of our economies, but also to be the basis for global, 
strategic partnership between the two countries stretching into 
the future.
    Mr. Chairman, I live in Colorado now and like many states 
it has not been immune to the problems facing our economy and 
ordinary people. Seeing the problems of unemployment firsthand, 
I'm very aware of the need for our trade agreements with other 
countries to be ones that work for both countries. I believe 
the Korea-U.S. Free Trade Agreement does just that, as 
President Lee and President Obama both made clear during 
President Lee's recent state visit to Washington. This trade 
agreement will create economic activity, not diminish it.
    President Lee's pledge to our auto workers in Michigan was 
particularly poignant. For an economist, the logic of free 
trade is fairly obvious. For workers, it can be more of an 
illusive concept, showing these workers in both Korea and the 
United States a benefit of the agreement in the coming years 
and months will be our challenge.
    Mr. Chairman, I would like to shift gears somewhat to the 
threat that continues to be posed by North Korea. The challenge 
from North Korea, both in conventional and in weapons of mass 
destruction remains one of the world's most difficult. North 
Korea remains committed to developing nuclear weapons, not to 
protect itself, but rather to threaten its neighbors. It was 
altogether appropriate that President Bush and then Korean 
President, the late Roh Moo-hyun, worked hard to create and 
support a regional approach to this threat known as the Six-
Party Process. The concept behind this approach was as sound 
then as it is today. The problem posed by North Korean 
aspirations for nuclear weapons is not just a peninsula issue 
involving the ROK and the United States. It is a broader issue 
that the international community needs to address with broader 
measures. Russia needs to be part of the solution. So does 
Japan and so especially does China.
    China, in particular, remains the country with the greatest 
leverage for dealing with this issue. There are many theories 
why China has not done more. The first, and this argument is 
obviously one favored by the Chinese, is that it is proof that 
China does not have leverage. Another theory is that China 
fears potential refugees from North Korea. Still another is 
that there is enough old think in China that those who somehow 
worry that a North Korean collapse would amount to a victory 
for the United States and a loss for China. There are almost as 
many theories for why China has not done more than there are 
North Korean weapons.
    What is clear is that the U.S. and ROK need to press 
diplomatically with others in the Six-Party Talks, especially 
with China to address the issue before the time comes that the 
North Koreans have succeeded in putting one of their crude 
devices, crude nuclear devices, on to a crude missile system. 
In particular, China needs to be convinced by the U.S. and the 
ROK that in the event of a North Korean collapse our alliance 
will not seek advantage against the Chinese. We have our 
interests securing the nuclear materials, protecting the 
population against hunger, but we will not look to disadvantage 
China's interest.
    China has nothing to fear from the U.S. or ROK 
relationship, nor does it have anything to fear from the basic 
proposition that further arrangements on the peninsula are for 
the Korean people to work out. China's relations with the ROK 
are of enormous significance to China and to the ROK. In turn, 
the U.S. has nothing to fear or oppose in the strong ROK 
relationship.
    Mr. Chairman, some day this issue will come to an end and 
North Korea will either become a respectable member of the 
international community or it will collapse. We need to be 
prepared for however events take this. And when it does and 
when the historians sift through its wreckage to find out what 
happened, they will see that the unshakable U.S.-ROK alliance, 
self confident, able to engage other key players, including 
China, will be the reason why this terrible legacy of the 20th 
century finally comes to an end. I look forward to answering 
your questions.
    [The prepared statement of Mr. Hill follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. Thank you, Ambassador.
    Mr. Klingner.

  STATEMENT OF MR. BRUCE KLINGNER, SENIOR RESEARCH FELLOW FOR 
            NORTHEAST ASIA, THE HERITAGE FOUNDATION

    Mr. Klingner. Thank you, Mr. Chairman and distinguished 
members of the committee. It is indeed an honor to appear 
before you.
    The tragic 3 years of conflict that began on June 25, 1950 
have been referred to as ``The Forgotten War.'' It is an 
unfitting label since neither North Korea's invasion or the 
American sacrifices will ever be forgotten by the Republic of 
Korea, nor should that shared ordeal ever be forgotten by those 
Americans who treasure freedom and the willingness to defend 
it.
    This alliance forged in blood is not merely historic 
legacy. As tragically demonstrated by North Korea's two 
unprovoked acts of war last year against our South Korean ally, 
those attacks made all too clear that the need for vigilance 
has not diminished. Alliance managers in both countries 
describe the current military, political, and economic ties as 
the best they've ever seen. With the recent approval of the 
KORUS FTA, there are no major substantive areas of disagreement 
between Washington and Seoul. Indeed, much of the recent summit 
between Presidents Obama and Lee was to discuss additional 
areas of bilateral cooperation beyond the Korean Peninsula.
    The U.S.-South Korean security alliance has been 
indispensable in maintaining peace and stability in northeast 
Asia. The U.S. security guarantee has long deterred a North 
Korean attack while providing the shield behind which South 
Korea developed its economic strength and institutionalized 
democratic rule.
    South Korea has devoted considerable resources to 
protecting itself against a daunting spectrum of North Korean 
military threats. Seoul has recently initiated extensive 
defense reforms to enable its military to better protect the 
country while concurrently expanding its security reach beyond 
the Korean Peninsula.
    In March of this year, Seoul announced 73 defense reform 
objectives of a new defense reform plan called DR 307. These 
objectives will better prepare South Korea to assume more time 
operational command in 2015, as well as address deficiencies 
identified in the South Korean military response to last year's 
attacks. Seoul should be commended for creating an 
organizational structure capable of assuming independent 
military command with the U.S. to serve in a supporting role. 
That said, there are still challenges ahead.
    South Korean forces still have insufficient agility to 
respond effectively to Yeonpyeong's tactical provocations. 
South Korean forces are not currently organized for joint 
operations, particularly at the tactical level. However, the 
U.S. and South Korea are currently engaged in bilateral efforts 
to improve Korean and alliance provocation response 
capabilities.
    Another area for improvement is South Korean missile 
defense. During the two previous South Korean Presidents, Seoul 
downplayed the growing North Korean missile threat for 
political reasons. The result is that South Korea currently has 
insufficient missile defenses against North Korea's missile 
threat. Under President Lee Myung-bak, South Korea has been 
more receptive to augmenting missile defenses. It has not 
followed through with requisite actions such as purchasing 
land-based PAC-3 missiles and seaborne SM-3 missiles.
    Of course, South Korea does not bear its security burden 
alone. Despite its security reform initiatives, South Korea 
will remain heavily reliant on U.S. military capabilities. And 
even after wartime OPCOM transfer, Seoul's alliance with the 
United States will continue to play an irreplaceable role in 
maintaining peace and stability.
    In order to remain an effective deterrent, defense, and 
response capability, the U.S. must maintain a robust forward-
deployed military presence in South Korea at promised levels 
and affirm our unequivocal extended deterrence commitment. We 
must also fully fund on-going U.S. military realignment plans 
in South Korea and Japan including the Yongsan Base Relocation, 
the Land Partnership Plan, and accompanied tours.
    Also, constructing the Futenma Replacement Facility in 
Okinawa for U.S. Marine Corps Air Units is crucial for 
maintaining U.S. military capabilities including for Korean 
contingencies. Proposed cuts by the U.S. Senate Armed Services 
Committee would undermine years of carefully crafted diplomacy 
that achieve U.S. strategic objectives. And potential 
additional draconian cuts of $500 billion to the defense budget 
could have a devastating impact on U.S. ability to deter 
security threats in Asia, protect American national interests, 
and fulfill our defense treaty obligations.
    In conclusion, the U.S.-South Korea alliance has been under 
valued in recent years. The U.S.-Japan alliance is critical to 
American interests, but South Korea has capabilities that are 
not available to Japan. Tokyo is constrained in its security 
contributions by its historic legacies, constitutional limits, 
restrictive rules of engagement, and low defense spending. U.S. 
policy statements that imply secondary status for American 
military relations with South Korea are a disservice to the 
stalwart military bonds forged during 60 years of the bilateral 
alliance with Seoul.
    Thank you again for the opportunity to appear before you. 
And I look forward to your questions.
    [The prepared statement of Mr. Klingner follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. Thank you.
    Ms. Overby, we look forward to your testimony.

 STATEMENT OF MS. TAMI OVERBY, PRESIDENT, U.S.-KOREA BUSINESS 
                            COUNCIL

    Ms. Overby. Thank you, Mr. Chairman, distinguished members. 
On behalf of the U.S.-Korea Business Council and the U.S. 
Chamber of Commerce and its members, thank you for the 
opportunity to speak with you today.
    The U.S.-Korea Business Council is the premiere business 
advocacy organization representing America's top companies 
investing in Korea. The Council is made up of senior executives 
of U.S. companies from every business sector that are major 
investors in Korea and are firmly committed to the Korean 
market. The Council has led efforts in support of the U.S.-
Korea Free Trade Agreement since the start of negotiations in 
February 2006.
    As signed into law by President Obama last week, this 
agreement successfully addresses many of the market access and 
regulatory barriers that have long presented challenges to the 
expansion of trade and investment between our two countries. 
KORUS further strengthens our shared commitment to open trade 
and commerce and holds extremely positive implications for both 
large and small American business.
    We salute the work of Congress and the Subcommittee on Asia 
and the Pacific in ratifying the FTA and we await passage of 
the agreement in the Korean National Assembly. The U.S.-Korea 
FTA is the most commercially significant trade agreement 
America has entered into since NAFTA. Korea is America's 
seventh largest trade partner with $88 billion in two-way trade 
last year; the fifth largest market for U.S. agriculture goods. 
And last year, our ag. exports totaled nearly $5 billion.
    South Korea is also the second largest market for U.S. 
services in Asia and U.S. cross border export of services in 
Korea total $12 billion in 2010. Conservative estimates hold 
that KORUS has the potential to create as many as 70,000 
American jobs, a conservative figure that does not capture the 
full potential for growth. The U.S.-Korea FTA is vital not only 
for creating new jobs and growth, but also to halt the erosion 
of U.S. market share and competitiveness as South Korea enters 
into preferential trade agreements with other major economies. 
This new partnership addresses Korea's complex regulatory 
system and other non-tariff barriers with strong provisions and 
protections that open the market, protect U.S. interests and 
set the bar higher for future trade pacts. This is an important 
opportunity for the United States to shape the future trade 
agenda in Asia.
    Uniquely positioned in the region, Korea will now serve as 
a launching pad for U.S. goods and services. With strong rule 
of law, enhanced intellectual property protection, a high 
education rate, and a passionate workforce, Korea will enhance 
U.S. ties to all of northeast Asia in addition to its own 
trillion-dollar marketplace.
    KORUS affirms Korea as the only country in northeast Asia 
with a U.S. free trade agreement, thus providing American 
workers, farmers and companies with an important edge over our 
global competitors. Successful implementation of this landmark 
agreement now stands as our primary concern. Before the FTA can 
formally enter into force, both countries must demonstrate 
their compliance with all obligations that will take effect on 
Day 1. This includes specific tariff revisions and product-
specific rules as well as administrative and regulatory changes 
covering issues such as Customs and procurement.
    Immediately following President Lee's signature, officials 
from both nations will schedule comprehension discussions to 
review bilateral law adjustments and following this, the 
exchange of formal diplomatic notes will empower the agreement. 
While these steps must be expeditiously carried out in order to 
meet the first of the year deadline, this is only the beginning 
of a much larger plan that must be executed. Understanding the 
many challenges that will arise during this implementation 
process, the U.S.-Korea Business Council is poised to 
collaborate with government officials as well as our Korean 
colleagues to discuss and resolve issues that have impeded past 
agreements.
    U.S. businesses, small and large, must have a clear and 
navigable route to this fertile market and the Chamber is proud 
to play a leading role in these efforts. Following the 
implementation, a working level dialogue will be established to 
discuss economic policies that affect both countries and give 
U.S. companies a voice in the Korean marketplace. Korea wishes 
to become a regional financial hub and in order to do this, 
transparency within the market must be increased. Under this 
new spirit of openness, U.S. business will thrive.
    Mr. Chairman, Mr. Ranking Member, members of the 
subcommittee, I greatly appreciate the opportunity to testify 
on this expanding alliance. By demonstrating that we are 
willing and able to embrace new opportunities in an 
increasingly competitive market, we are reinforcing America's 
economic leadership in the region. The U.S. Chamber and the 
U.S.-Korea Business Council are firmly committed to working 
with Congress and the administration to ensure successful 
implementation of the U.S.-Korea FTA and to advance U.S. 
interests in Asia and around the world.
    Thank you very much.
    [The prepared statement of Ms. Overby follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. Thank you for your testimony.
    Mr. Kim?

STATEMENT OF ABRAHAM KIM, PH.D., VICE PRESIDENT, KOREA ECONOMIC 
                           INSTITUTE

    Mr. Kim. Thank you, Mr. Chairman and Congressman 
Faleomavaega and honorable members of the subcommittee for this 
privilege to speak before you today about the future of the 
U.S.-Korea alliance after the successful state visit of 
President Lee and the ratification of the U.S.-Korea free trade 
agreement by the U.S. Congress. This is an important occasion 
for me on two respects. From a professional standpoint, my 
organization, the Korea Economic Institute, for the last 30 
years has served as an education and policy research institute, 
has tirelessly worked to promote dialogue and understanding 
between the U.S. and Korea.
    From a personal standpoint, as one of the 1.7 million 
Korean Americans that live in the United States, it was deeply 
satisfying to see the ties between Korea and the United States 
growing stronger and more vibrant. Building up this critical 
relationship is a win-win situation for both countries and 
peoples.
    As requested by the subcommittee, I would like to focus my 
statement on three basic issues: What are the political 
dynamics that are shaping the efforts to ratify KORUS FTA in 
South Korea. Number two, looking ahead to 2012 in South Korea, 
how will next year's national assembly elections in April and 
Presidential elections in December impact U.S.-Korea relations. 
And finally, what is South Korean political sentiment on North-
South Korea relations?
    First of all, what is going on in South Korea? Since the 
U.S. Congress voted on the KORUS FTA, the South Korean National 
Assembly has geared up to pass it as well. However, the ruling 
Grand National Party and the liberal opposition have been 
locked in a political struggle over its passage, causing delay 
in the ratification process. The Democratic Party, the main 
liberal opposition party, is obviously concerned about how 
South Korean workers, farmers, and the small and medium 
enterprise will be negatively impacted. And also they are 
unhappy about the renegotiations that took place in December 
2010.
    Technically, the ruling of the Grand National Party could 
unilaterally pass the KORUS FTA with their majority. The ruling 
party leadership, however, faces popular pressure to build a 
consensus rather than simply ramming through legislation. 
Furthermore, threats by liberal opposition to use physical 
force have delayed voting on the agreement.
    Although the elections are not until next year, the 
election politic season has already begun in South Korea and 
politicians are increasingly sensitized to voters' perception 
and attitudes. That said, the Grand National Party leadership 
has announced that it intends to bring the free trade agreement 
to a vote by October 31st and the general sentiment is that the 
KORUS FTA will pass despite liberal opposition. For one, the 
political sentiment in South Korea about the KORUS FTA is 
majorly positive. According to a South Korean newspaper poll, 
55.2 percent are in support, while 28.5 percent are against. 
Clearly, there's a majority to support this.
    Once Seoul ratifies the agreement, the hope is to have this 
agreement enforced by January 1, 2010.
    So how will the KORUS FTA position the U.S. vis-a-vis 
Europe and China? Well, as Tami already explained, it will 
level the playing field and already as we know the European 
Union has already passed a KORUS FTA with South Korea. With the 
passage of the KORUS FTA and its implementation it will put 
U.S. companies and European companies on the same foothold. 
KORUS FTA will also make U.S. companies more competitive, 
increasingly competitive, excuse me, with Chinese companies, 
but to have the U.S. regain its top position in South Korea 
market will be unlikely. China is too far ahead in the South 
Korean market.
    But the greater ramification of this is political. It 
reinforces the long strategic value and reinforces the strong 
relationship that our two countries have. KORUS FTA also sets 
the standard of openness, transparency, and rule of law as the 
basis of other future U.S. engagement with the region. Finally, 
and third, it reestablishes U.S. credibility as a regional 
leader.
    Next I turn to how will next year's election impact U.S.-
Korea relations? In 2012, the Republic of Korea will have two 
major elections, the National Assembly election and the 
Presidential election. Political pundits in South Korea 
anticipate a major political shift. In the National Assembly 
they assume that the Democratic Party, the opposition party, 
will take a majority. In the Presidential election it is yet 
unclear because it's so far ahead. But despite these changes, 
the general understanding among most South Koreans is that 
whoever comes into power a strong relationship with the United 
States is important for three important reasons. One, South 
Korea needs the U.S. as a balance against a growing and more 
diplomatically aggressive China. Number two, North Korea 
continues to be a grave threat to South Korea and regional 
security. And North Korea's future with its leadership 
transition is unclear. And number three, South Korea shares 
common political and cultural values and have deep people-to-
people connections and have common global interests with the 
United States.
    Now I turn to what is the public sentiment in South Korea 
regarding North-South Korea relations? Well, the general public 
view about North Korea is very mixed. But in general, they 
appear to be supportive of a policy based on no unilateral 
economic assistance unless Pyongyang takes substantive move 
toward inter-Korean talks and denuclearization. Last year's 
North Korean attack on the Cheonan and Yeonpyeong Island was a 
defining moment for many South Koreans. Some have called it 
South Korea's 9/11. Up to that point South Koreans were aware 
that North Korea's military threat existed, but never believed 
the North Koreans would actually attack, and yet last year they 
did.
    Polls illustrate that after the Yeonpyeong Island, almost 
70 percent of the respondents supported some kind of limited 
response. Another poll indicated that up to 80 percent of poll 
respondents supported that more military action should have 
taken place. All this said, South Koreans also do not support 
war on the peninsular. Plus, most South Korean citizens are 
distrustful of Pyongyang and many anticipate North Korea will 
cause more provocation as we move into 2012.
    Thank you very much for this opportunity. And I'm open for 
any questions, Chairman.
    [The prepared statement of Mr. Kim follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. Thank you. We're going to start with Mr. 
Kelly.
    Mr. Kelly. Thank you, Mr. Chairman. And I'd like to thank 
the panel for being here today. I've been accused of having 
some type of a personal interest in the KORUS moving forward 
and I have no problem with that. I'm a Hyundai Kia dealer in 
addition to serving in Congress. So I would gladly say that I 
have a personal interest not only me, but the 60,000 Americans 
that are directly involved with the production in Alabama and 
Georgia of those two products.
    My real concern though, I think, and we face the same 
challenges together when we look at our two countries, we're 
much closer than most people realize, both strategically, 
geopolitically, and especially when it comes to elections or 
reelections. So it seems to me the discourse is more driven 
toward be careful what you say and what you do because it may 
have a bad reflection.
    I am very concerned, Mr. Kim. In the Republic, what would 
be the problems for getting the agreement ratified? And I know 
that you spoke--right now, there's even threats of violence and 
some aspects of the agreement. I know that geopolitically it 
did have and I know in the last elections it had tremendous 
effects on the outcome of the elections because I think in the 
Republic they felt, look, we made concessions. President Obama 
came over. We agreed to do certain things and then went back to 
the United States and it sat for a long time before it was 
voted on and we did, just a couple of weeks ago in a bipartisan 
effort, passed KORUS and President Lee was here and gave one of 
the best addresses that I have heard from a person coming in 
from the outside and talking to the Congress.
    But for the American people to understand, what would be 
now the holdup and what are some of the challenges that 
President Lee faces from the opposition and knowing even that 
the agreement really was crafted by his predecessor to start 
off that way. So I'm trying to understand okay, we have an 
agreement, we've come together. It's gone through the Republic. 
It's come over to the United States. We've approved it. Now 
it's going back to Korea. Now what are the challenges that we 
face right now and if you could just maybe articulate those a 
little.
    Mr. Kim. Sure. Congressman Kelly, the challenge is 
basically election season has started in South Korea and right 
now the ruling party is in a very vulnerable position of losing 
its majority because of low support. And so in order to 
consolidate the Democratic Party, the opposition, in order to 
consolidate their base as well as win the support of those who 
may negatively impact the KORUS FTA in South Korea, the 
politicians in the opposition parties are making a political 
stand right before the vote of this, the ratification of this 
agreement.
    And so in many ways this is domestic politics, but in terms 
of getting the votes to get this ratified, the Grand National 
Party has the votes to get this through and passed. And so I 
don't think from our understanding, the general understanding 
is that the Grand National Party will be able to get this 
through and they will be able to hopefully get this implemented 
by the January 1st time line. But it's, as you know, the old 
saying goes all politics is local and so a lot of folks are 
concerned about how this will impact next year.
    And so a lot of--even Grand National Party members are a 
little bit skittish or assessing to make sure that this 
agreement--that they can make a good push and good value effort 
and sell to the Korean people that this is good for everybody. 
And so I think this is much more domestic politics than the 
substance of the agreement. Everyone understands what this is 
about.
    Mr. Kelly. And I understand that. I mean we really share a 
lot. We have a lot more in common, especially when it comes to 
politics than most people understand. It really would be nice 
and I think that both sides all agree on this, if we could quit 
worrying about reelections and start worrying about getting 
things fixed it would really help both our countries 
dramatically. So thanks so much for being here and I apologize. 
Thank you so much for being here.
    I know the effort was a grand effort to get this done. I'm 
not sure I understand why, but now after being here 9 months 
it's starting to become a little more clear to me. But thanks 
so much for your efforts. I think we're moving in the right 
direction. It's great for both our countries to move forward. 
So thanks so much.
    I yield back, Mr. Chairman.
    Mr. Manzullo. Thank you. Congressman Faleomavaega has 
deferred to Mr. Chabot so he can ask his questions and then run 
off to another meeting at noon.
    Mr. Chabot?
    Mr. Chabot. I thank the chair and I also thank Mr. 
Faleomavaega for giving me the time. Ambassador Hill, I've got 
five questions and I'd like to get five answers. If you could 
keep them relatively brief, we'll try to get them all in in the 
5 minutes I've got.
    Number one, in 2008, according to The Washington Post, 
fresh traces of highly enriched uranium were discovered among 
the 18,000 pages of documents submitted by North Korea to the 
United States. Yet, at that time you chose as the U.S. chief 
negotiator to ignore this evidence on North Korean HEU program 
and to focus solely on plutonium processing.
    In addition, in November last year, visiting American 
scientist Siegfried Hecker was shown an HEU facility in North 
Korea that reportedly left him stunned. In retrospect, wasn't 
your decision not to pursue the HEU topic in negotiations with 
the North a huge mistake?
    Ambassador Hill. Actually, we were concerned about HEU for 
a number of years when the evidence first started coming in. 
The question was we didn't know how far they had gotten. The 
fact was that we know they were producing plutonium and that 
was a clear and present danger. So the policy became to do 
something to stop the plutonium, but keep the door open to 
discuss the uranium enrichment in particular. And the reason 
all the negotiations broke down in '08 was over the issue of 
highly enriched uranium because we did get these indications, 
as you said, trace amounts on documents.
    We also got trace amounts on some actual samples that we 
were able to get back from the North Koreans. So we insisted 
that we could not accept only access to known facilities. We 
insisted that we needed access to unknown facilities. The North 
Koreans wouldn't give us that access and therefore we actually 
ended the talks.
    Mr. Chabot. Thank you. I'm going to go ahead and give you 
all four questions now and you can take whatever time to answer 
all four because I'll never get through these in 5 minutes.
    Last February, in retirement, you published an article 
stating that ``North Korea had lied repeatedly to not only the 
United States, but also to China, Russian, Japan, and South 
Korea and that North Korea has no genuine interest whatsoever 
in fulfilling its nuclear disarmament responsibilities.'' 
That's all your quote. Doesn't repeated North Korean duplicity 
raise questions about the whole negotiating process including 
the Six-Party Talks? That's the second.
    Next question, number three. In a February 2011 article, 
you stated that North Korea was ``a state whose treatment of 
its own citizens is among the most abysmal in the world.'' 
Given you acknowledge that Pyongyang is one of the leading 
human rights abusers in the world, do you still believe it was 
the right decision to minimize human rights and religious 
freedom concerns in your negotiations with the North Koreans?
    Next question. According to his memoirs, Vice President 
Cheney considered the North Korea built reactor in Syria to be 
such a threat to peace that he urged President Bush to take it 
out in a military strike. Now we know the Israelis, of course, 
took that action. The Vice President viewed the engagement 
policy with North Korea advocated by Secretary of State Rice 
and yourself as naive and a major foreign policy mistake. How 
would you respond to Mr. Cheney's concern.
    And finally, in October 2008, you succeeded in your 
advocacy that North Korea be removed from the State Sponsors of 
Terrorism list, despite the major distress this caused our 
Japanese ally due to the abduction issue. In exchange, you 
reportedly received North Korean assurances that they would 
accept a transparent verification process for denuclearization. 
You did not, however, according to press reports, receive North 
Korean assurances in writing to the reported dismay of then 
Secretary of State Rice. The North Koreans reneged on their 
assurances to you. By the end of 2008, the Six-Party Talks had 
fallen apart and they have not reconvened for the past 3 years. 
Given the results, would you now admit that removing North 
Korea from the list of State Sponsored Terrorism was both 
premature and a mistake. And you have 26 seconds to answer all 
four questions.
    Ambassador Hill. Let me do my best.
    Mr. Manzullo. Ambassador, you have as much time as you 
need.
    Ambassador Hill. Thank you very much. First of all, with 
regard to the issue of North Korean duplicity, you bet, there 
was North Korean duplicity. But often when you're conducting 
negotiations, you're doing it for a number of reasons. One of 
the reasons the United States tried vigorously to conduct these 
negotiations was to demonstrate to other partners, especially 
in South Korea that we were prepared to do all we could on a 
peaceful track through diplomatic track to see if we could make 
progress. If you looked at polling data in South Korea in 2003, 
2004, you could see that the United States was considered, 
along with North Korea, considered one of the reasons for the 
North Korea nuclear problem.
    So to see the United States as being held to blame by a 
substantial percentage of South Korean citizens suggested that 
we needed a policy that had a stronger diplomatic track. It 
does not mean that we were naive about the possibilities of 
getting the North Koreans to give up their nuclear weapons, but 
we did hope that through a step-by-step process we could make 
some progress. I believe we did make some progress in terms of 
shutting down the clear and present danger of plutonium 
production because they were producing plutonium and then using 
it in nuclear devices. So I think that was important to 
continue and I do not believe that was a mistake. And I think 
it was very important to show the South Koreans our commitment.
    Today, we have a situation where the North Koreans are 
still duplicitous, but the United States is not being held to 
blame by any substantial number of people in South Korea. We 
are together with South Korea. We're working together and I 
think it's a much better environment as a result of our 
attempting to pursue this.
    Secondly, with respect to human rights, I stand by my 
statement North Korea is one of the most abysmal human rights 
abusers in the world. And there's no question about that. And 
any country that has that kind of record is going to have 
difficulty in achieving normalization with us, for example. And 
I made very clear to people at the time, in fact, I gave 
assurances that if we ever got to the point where we were going 
to go beyond the nuclear negotiations and try to somehow 
normalize bilateral ties with North Korea that we would address 
the human rights forthwith with a separate track to deal with 
human rights. That is, we were not prepared to go ahead and 
just normalize with North Korea given its human rights track.
    Now arguments can be made well, why didn't you make human 
rights, why didn't you tie it to the nuclear issue. The nuclear 
issue was a very tough issue to make any progress as some of 
your questions suggest. You're absolutely right. We didn't feel 
that adding human rights in the context of the nuclear 
negotiations would make progress either on human rights or on 
nuclear and besides, our other partners were opposed to that. 
So we made very clear to the North Koreans, we raised human 
rights on a number of occasions with them, on many occasions, 
and we made very clear that if we got to the point where we 
were prepared to improve bilateral ties with North Korea that 
we would have to deal with the human rights issue.
    I understand that former Vice President Cheney did not 
support the issue of the negotiations with North Korea. I was 
an Assistant Secretary taking instructions from the Secretary 
of State and the Secretary of State was taking instructions 
from the President. So Vice President Cheney's views on this, 
he really should take them up with the President or with the 
Secretary of State and not with the person who was implementing 
them which was me.
    With respect to the issue of the Syrian nuclear facility, 
you're quite right. There was apparently a reference in Vice 
President Cheney's book to him suggesting that he felt we 
should take out the facility on our own and as I understand 
from his book, other people in the situation room, including 
the President didn't support him. Again, I think this is a 
matter between former Vice President and the former President 
to sort out what that argument was about.
    Is there something else I haven't addressed? I just want to 
make sure--oh yes, I'm sorry, the terrorism list. The issue of 
the terrorism list, the issue of state sponsors of terrorism, 
it's essentially a list that says if a country is a state 
sponsor of terrorism, for example, if a country is giving 
material aid to terrorist groups, that country is ineligible 
for U.S. assistance, also ineligible for the U.S. to vote 
affirmatively on World Bank loans and other issues like that. 
So the first question was from the point of view of the 
statute, was North Korea eligible to come off of the statute? 
According to the committee which had nothing to do with me, 
nothing to do really--it was an inter-agency committee. The 
assessment was that North Korea was not assisting terrorist 
groups. There were various reports that North Korea might be 
helping groups in the Middle East. These assessments were 
tracked down and it was determined that they were not assisting 
them.
    So then becomes the political question are you prepared to 
take them off the list if you could feel you could make some 
political gains elsewhere. And the decision was made over my 
pay grade. The decision was made that if we could get North 
Korea to first of all end the plutonium production, blow up the 
cooling tower, these actions, that we would at least be able to 
end the plutonium threat. We never accepted verbal assurances 
or even written assurances on the issue of access to undeclared 
sites. We needed real assurances on access and we never got 
them and that's why the negotiations fell apart.
    When the negotiations did fall apart, I think everyone 
understood, the South Korean public, everyone understood it was 
not for our lack of trying, it was not for our lack of good 
faith negotiation, the blame was squarely put on the North 
Koreans and as a consequence, no one has blamed the U.S. and 
the U.S.-ROK, Republic of Korea alliance is as strong as it has 
ever been.
    Mr. Manzullo. Thank you, Mr. Ambassador.
    Mr. Chabot. Mr. Chairman, thank you again for your time. If 
I could just say one final thing, at least this one member's 
opinion is that U.S. policy toward North Korea, particularly 
with respect to their nuclear program has been flawed and 
wanting, not just in this administration, but previous 
administrations as well, if you look at the results. And I'll 
yield back. And thank you and the ranking member for your 
generosity.
    Mr. Manzullo. Before we go to Mr. Faleomavaega, Mr. Kim, 
you've got your family here?
    Mr. Kim. Yes, I do.
    Mr. Manzullo. Do you want to introduce them to us?
    Mr. Kim. My wife and my son and my daughter and their two 
friends are over there in the left corner.
    Mr. Manzullo. Welcome. It's good to have you here. Are your 
children taking notes? Yes, of course, you bet, you bet.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I do want to 
again thank the distinguished chairman of the Subcommittee on 
the Middle East, a very, very important and dear friend, 
Chairman Chabot, for raising the questions concerning our 
hearing this afternoon.
    Mr. Chairman, I have so many questions I don't know where 
to start. I think we sometimes compartmentalize issues and to 
think that everything is all laid out in a real neat package, 
Korea is not one of those packages. It is very, very 
complicated. The times that I've had the privilege of visiting 
with the leaders and the good people of Korea for all these 
years, Mr. Chairman, I must say that it's such a difficult 
situation, the fact that Korea being divided as it is, it 
wasn't because of the Koreans doing. It was something that 
because of two more powerful forces caused the division that we 
now have in North and South Korea. It is very, very 
unfortunate.
    I'd like to raise this question first. You know, several 
weeks ago we had a hearing here and I'd like to invite our 
witnesses to think outside the box on this situation, this 
observation that I've made. We talked about the dangerous 
situation in North Korea. We talked about the involvement of 
China, the involvement of Japan, the involvement of the United 
States.
    And when all this dialogue was going on, Mr. Chairman, not 
one expert witness mentioned anything about South Korea, as if 
the people, the leaders of South Korea had no say in the 
process, no input, no sense of appreciation and understanding 
that by thinking outside the box we need to have South Korea to 
be just as involved and not just as dependent on so much of 
what China thinks or what Japan thinks, or what Russia thinks. 
What about the people of South Korea?
    When I raised the issue, it was a little of a surprise from 
our expert witnesses, oh yeah, yeah, South Korea is important, 
too. We need to talk about their involvement in the 
negotiations process.
    Chris, you know more than anybody, the years that you've 
spent in negotiations with North Korea--again, thinking outside 
the box, North Korea is already a nuclear country. It's a 
member of the nuclear club, along with the permanent members of 
the U.N. Security Council, along with Pakistan, India, and 
Israel. And here, we're telling North Korea, oh, put your 
nuclear bombs back in the box and pretend like as if they 
already do not possess eight nuclear weapons, have the 
capability only 30 miles away with 12 million people living in 
Seoul, that if there ever is to be a conflict in the Korean 
Peninsula, it's a lose-lose proposition.
    I don't care how you do it, I don't care how much military 
assistance we give South Korea. The bottom line in my humble 
opinion, Mr. Chairman, the Korean people will suffer. The 
Korean people will die and all these negotiations that we talk 
about and I would like to say to my friend, Chris, I have very 
serious questions about the relevancy of the Six-Party Talks.
    I can understand why China should be involved because China 
borders North Korea. I understand why we should be involved. I 
can understand why South Korea should be involved, but I don't 
understand why Russia and Japan should be involved. It's a 
beautiful understanding of oh, we have to have a multi-lateral 
approach to the situation of the Korean Peninsula, but in my 
humble opinion, I don't understand why the relevancy of having 
Six-Party Talks for all these years. And where have we ended up 
after negotiations? Zero.
    Chris, could you care to comment on this?
    Ambassador Hill. Well, first of all, I think it was 
important and it remains important to have all the countries in 
the region taking ownership of the problem. I do not accept the 
notion, first of all, that somehow this is just the U.S. 
problem. I think for that reason it was very important to bring 
in other countries, especially the Republic of Korea because 
the peninsula belongs to the Korean people.
    And we have a real role there. We have a security 
commitment. We have troops on the ground there. We have to be 
involved in that. But I think it was very important to bring 
other actors, including the South Koreans to the table.
    Secondly, I think if you look at Japanese security 
concerns, clearly some of them emanate from threat in North 
Korea, so Japan, I think clearly needs to be at the table. I 
have concerns about whether we have been able to work out 
precisely the same approaches, but I think generally speaking, 
the U.S. and Japan have worked well on the issue of North 
Korea. It's true, there were some differences over the 
abduction issue as was previously discussed, but I think 
overall, our relationship with Japan has not suffered from the 
Six-Party process.
    And finally, I think the Russians have some potential 
leverage with the North Koreans. I think that's also important. 
And finally, I'd like to say, Mr. Faleomavaega, that I really 
cannot accept the notion that we need to simply sit back and 
accept that North Korea is <greek-l>quote  deg.``a nuclear 
power.'' I think North Korea's nuclear ambitions are inherently 
unstable, unstable within North Korea, unstable in the Korean 
Peninsula, unstable to the neighborhood, and ultimately to the 
world. I think we have to continue to work on it.
    I grant the point you made which is that we haven't solved 
it. I do believe getting rid of the plutonium capability which 
is not totally gotten rid of, but that threat is diminished. 
They have not been in the kind of breakout scenario that we 
worried about earlier, that some 30 kilos would become 60 or 
become 160 kilos. So I think we made some progress there, but I 
accept your point that this has been a really tough one and not 
enough progress has been made. But I think in diplomacy, as in 
other endeavors in life, you have to answer the question 
compared to what? And what else--what other track exists that 
would get us further on the way?
    So I think we have done our best to work with other 
countries. I think that's a key track and as I suggested in my 
testimony, I think we really need to press the Chinese to take 
far more ownership of this problem.
    Mr. Faleomavaega. I guess my time is up, Mr. Chairman. I'll 
wait for the second round. I have so many other things I wanted 
to ask, but my time is up. I'll wait. Thank you, Mr. Chairman.
    Mr. Manzullo. Thank you. I have a question for Ms. Overby. 
Actually, it's a question to Ms. Overby and Mr. Kim.
    Ms. Overby, you say in your written testimony that 
opposition to the free trade agreement in Korea is mild.
    Mr. Kim, you say opposition is intense. I realize there's a 
lot of politics going on here and obviously the ruling party 
has enough votes to ratify the agreement, trying to build a 
consensus, but give me some political scenarios. Is it possible 
this free trade agreement may not pass in Korea?
    Ms. Overby. I'll start and then pass it to Abraham. I said 
mild because I lived in Korea for 21 years and watched Korean 
politics up close and personal. I was also very actively 
engaged with the current opposition party, the Democratic Party 
when they were in power with Roh Moo-hyun and they actually 
negotiated this agreement. In fact, one of the DP leaders, 
Chung Won-Kyung was Commerce Minister under President Roh and 
he and I lobbied in this house, holding hands talking about how 
good this potential free trade agreement would be for both 
countries.
    So I do find it a bit ironic that he and his party are now 
staking out the opposite ground. But I do believe as Dr. Kim 
said, it is very much politics. In fact, when I meet privately 
with my DP friends, they pat my arm and say, ``Oh, Tami, you 
know it's just Korean politics. At the end of the day, KORUS 
will pass, don't worry. But we must play our role. We must have 
our theater.'' And I believe what they're having and what 
they're going to have the next few days with the Mayor election 
and then with the ratification of KORUS is going to be very 
good theater. But I do believe it will pass. I see no scenario 
where it does not pass.
    Dr. Kim?
    Mr. Kim. Sure. When I meant intense, I meant emotionally 
intense. And you will probably, as Tami mentioned, see this 
kind of political theatrics appear, because it's very much 
election politics. People are looking ahead to 2012.
    I think as Tami pointed out, the fact that the Democratic 
Party President actually negotiated the free trade agreement in 
'07 is one factor that would suggest that the Democratic Party 
will eventually vote, will allow a vote to occur. And also, the 
fact that EU-Korea FTA passed. There was some opposition, but 
it was allowed to be voted on and passed relatively quietly. 
And if you look at the structure of the two agreements, they're 
not exactly the same, but they're pretty same. And so the fact 
that that was passed and implemented suggests that I think the 
substance of the agreement is probably--there's some opposition 
by the most extreme politicians, but in general, I think 
they're willing to swallow, of course, FTA. But I think it's 
more electoral politics than anything else that we'll be 
seeing.
    Mr. Klingner. Yes, sir. And this also gets to Mr. Kelly's 
question, which is, why is there the opposition? I think three 
main reasons. One is that many of the members believe it's not 
in the best interest of their country. And that's fine. And 
that's why there's a democracy. They should allow a vote on the 
KORUS FTA instead of occupying the chairman's chair or seizing 
his gavel in order to prevent an actual vote.
    But other reasons, I think, are political. One is that the 
DP and the DLP want to maintain a left-of-center alliance to 
lead into next year's elections, so they see that they can 
garner more votes from the left-of-center voters by being 
opposed to this agreement. Another factor is that they want to 
force the GNP to railroad the KORUS through ratification. The 
GNP has the majority of the votes as given to them by the 
populace of South Korea. They can vote and they can use their 
majority.
    And yet, the majority party is afraid of doing that because 
then they will be accused of acting like the authoritarian 
regimes of the past. And that actually has resonance with a 
large part of the populace. So they are very nervous about 
acting like a majority party.
    Also, I think the DP wants to do that, and then they can 
look like the aggrieved party, that they were the victims of an 
authoritarian regime. It's very similar to World Cup soccer 
players who feign injury and with much theatrics fall to the 
ground, trying to induce a penalty. And one, I think, can't 
help but wonder if on the left-of-center resistance there's not 
some strain of anti-Americanism because the KOREU, Korea-EU 
FTA, was very, very similar, and there were very few protests 
against it within the National Assembly and out on the streets. 
And one thinks also back on 2008 and the massive anti-U.S. beef 
demonstrations and yet, at the time, there were far more 
serious dangers from Chinese products. There were carcinogenic 
chemicals in their kimchi, parasitic eggs and other products, 
Chilean pork had carcinogenic chemicals and yet we didn't see a 
single protest against them. So I think there was also a strain 
of anti-Americanism in that resistance. Thank you.
    Mr. Manzullo. Did you say they imported kimchi? Koreans 
imported Kimchi?
    Mr. Klingner. Yes, sir. From China. And there have been 
parasitic eggs in that. There were carcinogenic chemicals in 
Chinese seafood and some of the Chinese exporters were putting 
lead in the fish in order to weigh it down so that it would 
cost more. And also Chinese melamine was also seen as a danger, 
particularly to infants.
    Mr. Manzullo. Right before lunch. Mr. Kelly.
    Mr. Kelly. Thanks, Mr. Chairman. I appreciate that. I think 
you've answered most of the questions. Dr. Kim, you were 
talking about these legislation would have to be taken care of 
before the KORUS could go forward, but the more I listen to the 
testimony, this is the third time I've said this, we are more 
alike than we are different and I think sometimes in the world 
the shape of your eye or the color of your skin makes you think 
you're different, absolutely not true. We're all the same.
    When I look at the political process and what you're going 
through and the idea that we can somehow paint the other side 
as the problem and not really address the problems together to 
get them solved is the key to it. But I've got to tell you, I 
have a great affection for the Korean people because I know 
since 1949, 1950, we really have been very close allies and 
brothers in arms in almost every conflict and in every conflict 
and we do rely on each other quite a bit for support. So you 
all being here today and you're expressing it.
    I think the message that we need to get across, not only to 
the Republic, but also to those in the United States that don't 
understand where it is we're trying to go is that at the end of 
the day, this is so good for both of us and the upside is such 
a dramatic upside that we need to get beyond these political 
battles that we have and as we do face the same problems.
    My friend, Tom Kim, is here today. It's so good to see you, 
Tom. Tom has been so influential and has been so supportive in 
our backing of this agreement.
    So Mr. Chairman, I appreciate the opportunity to be here 
and also our colleagues on the other side. I think we see the 
upside of this and we understand it, and the ability to come 
together and talk about it in an open forum like this is 
critical. Not only to the United States, but also to the world 
because we do work better when we work together. Thanks so 
much. We appreciate you being here and I yield back my time, 
sir.
    Mr. Manzullo. Mr. Sherman from Sherman Oaks, California.
    Mr. Sherman. Thank you. I want to thank you for having this 
hearing in the wake of the U.S.-Korea Free Trade Agreement, or 
so-called free trade agreement. Needless to say, we would focus 
on that and it is a shame that we don't we have a single 
representative of American workers here, but of course, that 
agreement was never about American workers. It was only about 
profits for giant corporations on both sides of the Pacific. 
I'm sure it will achieve that purpose.
    Mr. Hill or Ambassador Hill, one of the issues, now that 
we've signed this agreement, both sides are supposed to enter 
into discussions as to whether Kaesong and similar facilities 
in North Korea will be considered part of South Korea for the 
purposes of the agreement.
    Now that would allow goods to come into our country duty 
free produced some would say by slave labor, in any case 
certainly not by those who are free to bargain over their own 
working conditions. Now Appendix 22B, I believe it is, it had a 
different number, says that before the executive branch can 
agree to that, there is supposed to be some involvement of the 
United States Congress. The current administration has issued a 
statement stating that it would not finalize such agreements 
without getting an affirmative vote by both Houses of Congress. 
Is that statement binding on the next administration, legally 
binding?
    Ambassador Hill. Well, first of all, Mr. Sherman, it's 
great to see you again. You may have missed the fact that I'm 
no longer in the U.S. Government.
    Mr. Sherman. I'm asking you as an expert. You were invited 
because you are an expert.
    Ambassador Hill. I would like to defer my answer on this 
particular issue to some of my colleagues who are closer to it 
than I am. I think----
    Mr. Sherman. They're even further from being parts of the 
administration than you are, but if one of them claims to have 
expertise on the matter, happy to hear from them.
    Mr. Klingner. Congressman Sherman, the KORUS does not allow 
South Korea to declare Kaesong to be part of----
    Mr. Sherman. No, it calls for serious negotiations between 
the executive branches of both governments which may--designed 
in the view of some to lead to that conclusion. The question is 
whether Congress will have--congressional approval would be 
necessary.
    Mr. Klingner. Right. The witnesses, administration 
officials from this administration and previous administration 
have testified including before this committee that it would 
require the approval, including legislative action by the----
    Mr. Sherman. Legislative action. Did they ever say in 
anything legally binding, that it would require the affirmative 
vote of the majority of both Houses of Congress?
    Mr. Klingner. I will look for the quote.
    Mr. Sherman. The answer is no. They deliberately prevented 
making that statement in anything legally binding. The 
proponents of the agreement fought tooth and nail and with 
great success to keep that out of the implementing legislation 
and you can be sure that within this decade goods from Kaesong 
will be coming into the United States as the current Ambassador 
of South Korea to the United States told a rally years before 
he became Ambassador to the United States. This is an agreement 
that will put American workers up against North Korean workers 
in fighting for jobs in the United States market. And I'm sure 
that if we had had a representative of the American worker here 
today that point would have been made before I came into the 
room.
    With that, I yield back.
    Mr. Klingner. Sir, if I could comment? Deputy U.S. Trade 
Representative Marantis testified in April 2011 that any change 
to how Kaesong is treated under the agreement would require 
Congress to pass and the President to sign legislation.
    Mr. Sherman. Is that legally binding or is that--Mr. 
Klingner, the point I'm making is that we got a press release 
instead of binding legislation. The point I'm making is that 
that statement is not binding on any administration, least of 
all the next one. And the cleverness of the proponents in 
giving us a press release instead of a provision in the 
implementing legislation demonstrates how successful they've 
been at achieving profits from major corporations and a loss of 
jobs for the middle class. I yield back all my time.
    Mr. Manzullo. Mr. Klingner, did you want to further answer 
his question?
    Mr. Klingner. There's also been questions about the rules 
of origin in the KORUS FTA and the idea that the rules of 
origin would allow North Korean products into the United 
States. That would be in conflict with existing U.S. laws and 
Executive Orders. For example, Executive Order 13570 declares 
that the importation into the United States directly or 
indirectly--indirectly, of course, covering components of any 
goods, services, or technology from North Korea is prohibited. 
And that any kind of import of North Korean products or 
components would require the specific approval by a U.S. 
Government agency.
    Mr. Sherman. Mr. Chairman, if I could have some time after 
the witness speaks?
    Mr. Klingner. The existing regulations would not be 
superseded by the KORUS FTA and there's text in the KORUS which 
specifically identifies that it would not be in conflict with 
existing rules and regulations.
    As for the effectiveness of these rules and regulations, 
during the past 5 years, the total imports into the United 
States from North Korea is $8,000 of stamps and during the past 
4 years, the imports are virtually zero. So I think the 
regulations show that they have been quite effective.
    Mr. Sherman. Mr. Chairman, can I address that?
    Mr. Manzullo. Sure.
    Mr. Sherman. First of all, the known imports from North 
Korea are $8,000. We have no idea how many North Korean 
components are contained in goods that come here from China, 
South Korea, Britain, or anywhere else. To stand here and say, 
sit here and say that we have been 100 percent effective on 
every item other than postage stamps is to misconstrue the 
practical world.
    Second, this committee and its chairwoman and I have 
introduced legislation to make those sanctions against North 
Korea statutory. Those efforts have been thwarted by the 
proponents of this agreement so that all of the Executive 
Orders you talk about can be waived by this or some other 
administration and the executive branch has been far less 
interested in sanctions than has this Congress and far more 
willing to accommodate multi-national corporations.
    But then finally, you claim that we will not be in 
violation of this agreement when goods partially made in North 
Korea and partially made in South Korea come into the United 
States. Yes, our current Executive Order, subject to change by 
a decision of just one individual, without any congressional 
input, but our current Executive Orders would block that at the 
border. That would put us in violation of the agreement and 
allow South Korea to take back some of the concessions they 
made, putting enormous economic pressure on the United States 
to relent. We've been through this already----
    Mr. Manzullo. I'm going to be unrelenting here and go on to 
Mr. Faleomavaega.
    Mr. Sherman. I want to thank you for the extra time, Mr. 
Chairman.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I think Mr. 
Sherman has made his point and his concerns concerning some of 
the provisions there in the free trade agreement and I'd like 
to follow up just for my own better understanding of the 
specifics. And his concerns, and correct me if I'm wrong, Mr. 
Klingner, Executive Orders have to have some guidance from the 
statutory provision that allows or authorizes the President to 
issue that Executive Order.
    My point is that isn't there a provision in the agreement 
or by law, as you have read earlier, that the Congress has to 
pass any conditions on anything or products coming out of North 
Korea. I think we've put it pretty clear that it's not to be 
allowed to be imported, to come to the United States.
    Can you, for the record, can you clarify that a little 
better?
    Mr. Klingner. Yes, Annex 22-B points out that for any 
additional, any outward processing zone to be included, whether 
it's Kaesong or some other area outside of the borders of South 
Korea, there would first have to be an agreement by a bilateral 
committee, U.S.-South Korea committee that couldn't even meet 
until 1 year after entering the force. If the U.S. team agreed 
that Kaesong or others should be included, that would require 
the U.S. team to agree that North Korea's environmental 
standards, working standards had it made progress on human 
rights, had it made progress on denuclearization, all of those 
are requirements. Even if the U.S. team agreed to that, then it 
has to be--the executive branch has to receive approval by 
Congress.
    Mr. Faleomavaega. It still has to come back to Congress for 
final approval.
    Mr. Klingner. Yes. And as for Mr. Sherman's point that the 
U.S. rules, regulations, etcetera could be in conflict, that's 
not the case because the KORUS FTA cannot override or even be 
in conflict with current U.S. laws prohibiting the import of 
North Korean products or components because the KORUS contains 
text specifically allowing the U.S. to do that.
    Article 23.2(b) says nothing in this agreement shall be 
construed to preclude a party from applying measures that it 
considers, which is a very low standard, necessary for the 
protection of its own essential security or the protection of 
its own essential security.
    Article 22.8.4 says no provision of this agreement shall 
prevent the party from limiting or prohibiting the importation 
of the good of the nonparty from the territory of the other 
party. So there's a lot of various----
    Mr. Faleomavaega. Would be correct, while I can appreciate 
my colleague's concerns about the importation of products that 
are manufactured from North Korea, there are provisions in the 
agreement to be absolutely certain that if there are to be 
changes, it has to come back to the Congress for approval or 
disapproval?
    Mr. Klingner. Yes, sir.
    Mr. Faleomavaega. And I just wanted to make sure for the 
record that we're clear on that. I was listening and trying to 
sense what his concerns are about as if we're allowing this to 
be an exception, but from what you've just shared with us, we 
appreciate your sharing with us that provision of the free 
trade agreement very clear in my opinion.
    I have another question I wanted to raise with our 
witnesses, Mr. Chairman. As I've said, thinking outside the 
box, is our number one concern about the nuclear issues in the 
Korean Peninsula? That always seems to be the number one 
concern that we have, our Government as well as the governments 
in the region about North Korea having the capability of 
possessing or creating nuclear weapons.
    Two weeks ago, the President of Kazakhstan invited me to 
attend a world conference on getting rid of nuclear weapons 
altogether. Now I'm very concerned simply because I'm probably 
one of the few Members of Congress who has ever been to Ground 
Zero where we conducted nuclear tests in our history. I've been 
to the Marshall Islands where we literally blew up those 
islands to pieces, leaving several hundred Marshallese people 
for the rest of their lives subjected to nuclear radiation, 
where we exploded the first hydrogen bomb. That was 1,300 times 
more powerful than the bombs that we dropped in Nagasaki and 
Hiroshima; where we detonated 67 nuclear bombs in the Marshall 
Islands. That bomb was so devastating which was called the 
Bravo Shot, the nuclear cloud floated and it ended up with 
strontium 90 in milk products in Minnesota and Wisconsin.
    And so what do we do? We immediately put a stop on our 
nuclear testing program in the Marshall Islands, and we decided 
to send it to Nevada where we conducted an additional 1,000 
nuclear detonations, but this time underground thinking that 
maybe it's safe and well, when in actuality the downwinders 
until to this day, there's very serious questions about the 
higher rate of cancer among those people living in southern 
Utah as well as in other parts of the State of Nevada as a 
result of our nuclear testing program.
    The French, after detonating 17 nuclear bombs in Algeria, 
they got kicked out of Algeria where the Algerian people were 
fighting for their independence and where 1 million Algerians 
lost their lives to fighting against French Colonialism. So 
President de Gaulle decided to say well, we don't want to test 
in Paris, can't do that in France, so they come to the South 
Pacific where they exploded 220 nuclear bombs in the 
atmosphere, on the surface, under the ocean in French 
Polynesia. I personally went to Moruroa Atoll where the French 
conducted these nuclear tests and it was not a very pretty 
sight in my humble opinion, Mr. Chairman. To this day that 
island is still contaminated. Thousands of Tahitians were also 
subjected to nuclear radiation.
    The President of Kazakhstan years ago invited me to come to 
Kazakhstan. This is where the Russians exploded their first 
nuclear bomb in 1949 and afterwards detonated 450 nuclear bombs 
in Kazakhstan, subjecting some 1.5 million Kazakhs to nuclear 
radiation. I say that nuclear proliferation, it comes to this 
bearing, Mr. Chairman, that I think it has serious implications 
on the very issue that we're talking about in the Korean 
Peninsula.
    Are we really serious about getting rid of nuclear weapons? 
I commend the Obama administration for its efforts to lessen 
the number of nuclear weapons that we now possess, between us 
and the Russians. It is a fact that the President of 
Kazakhstan, by his leadership and initiative, decided he didn't 
want to be a nuclear nation where he could have had the fourth 
largest number of nuclear bombs in his possession. It could 
have been a nuclear country overnight if he wanted to, but no, 
he wanted to dismantle it, thanks to the likes of Senator 
Lugar, Senator Sam Nunn, and Chris Hill is very familiar with 
this, where we assisted in getting rid of all the nuclear bombs 
that the Russians left to the Kazakhs.
    The bottom line that I wanted to raise on this issue of 
nonproliferation, there's a double standard that we have here 
in telling the rest of the world that you can't have nuclear 
weapons, but it's okay for certain countries to continue 
possessing nuclear weapons. Oh yes, we are making every effort 
to get rid of nuclear weapons altogether, but boy, we're sure 
doing it pretty slow. And of course, we go back to President 
Reagan's famous axiom, ``trust, but verify.'' Well, how long 
are we going to continue doing this with the fact that those 
who possess nuclear weapons aren't exactly the best examples of 
how we can really get rid of nuclear weapons altogether.
    And I suppose this is also the implications why North Korea 
wants to have nuclear weapons because of fear that we might 
have nuclear weapons at its borders in South Korea. Of course, 
we will never admit or deny or allow to think such is the case, 
but those are the implications.
    And coming out to my point, Mr. Chairman, and I want to ask 
the witnesses, I think if there's ever a resolution to the 
situation of the Korean Peninsula, 30 seconds, Mr. Chairman, I 
really believe that the people and the leaders of North and 
South Korea have got to be the ones to find that solution. I 
don't think it's up to the United States and China and all the 
other countries to think that they can do it for them. I really 
believe if they're responsible for President Kim Dae-jung's 
personal visit to North Korea and trying his sunshine policy. 
Some say it failed, but the principle was there. And 
unfortunately, the situation is still under negotiation, I 
suppose, in that act.
    And all I want to say, Mr. Chairman, is that, and I'm sorry 
that I've gone way beyond my time, the peaceful resolution in 
the Korean Peninsula has got to be on the minds and in the 
hearts of the people of both North and South Korea. With that, 
Mr. Chairman, I yield.
    Mr. Manzullo. We want to thank the witnesses for coming. It 
has been a very enlightening and wonderful discussion.
    Ambassador, did you want to say something, because you had 
pressed your button there?
    Ambassador Hill. Let me just say in response to Mr. 
Faleomavaega, I think every one in the world, most people in 
the world share this aspiration for a nuclear-free world. 
Certainly, we understand the point that those nuclear weapon 
states also have an obligation and an obligation, NPT, to look 
for ways that they also build down.
    But I just want to make it very clear that the North 
Koreans have not embarked on this path for some sort of defense 
purposes. No country in the region, South Korea, Japan, to name 
the two main countries there, have nuclear arsenals. And for 
North Korea to develop one is very dangerous and destabilizing 
in the region and we need to keep focused on the task of 
getting them to get rid of these weapons. And the way to do 
that is to work with other countries in the region.
    I completely take the point, however, that there is a role 
in the overall process of negotiating with North Korea between 
the--in the inter-Korean dialogue. There's a role for South 
Korea to be working or negotiating with North Korea on a 
variety of issues. but South Korea is also a very--member in 
good standing of the Six-Party process, consults very closely 
with us, consults very closely with the other parties and I 
think what we all need to do is not allow a situation where the 
North Koreans can somehow divide and conquer or go shopping for 
various different configurations of countries that we all need 
to stand united in the fact that we cannot allow this country 
that cannot even feed its people to be building nuclear 
weapons.
    Mr. Manzullo. Mr. Klingner, go ahead.
    Mr. Klingner. Mr. Faleomavaega, thank you very much for 
your very expansive and heartfelt thoughts. I'm a Northeast 
Asia analyst so I tend to remain in my own little box rather 
than having such an expansive view, but perhaps just to point 
out, I think, a difference between North Korea's nuclear 
programs and all of the others you mentioned, is that North 
Korea vowed it would never pursue nuclear weapons programs, and 
actually signed four or five documents vowing it would never 
pursue nuclear weapons programs. And then under the Six-Party 
Talks, they signed three agreements that they promised to give 
up the programs that they had vowed never to pursue in the 
first place.
    So the requests of the United States and its allies are 
simply to ask Pyongyang to live up to its agreements, to 
abandon its nuclear arsenal, and that's, I think, a very direct 
request and that's what we're hoping North Korea will do, 
although as Ambassador Hill said before, there's not a great 
deal of optimism that that will be successful, but I think it 
is still a pursuit that we need to try to achieve with all the 
efforts that the United States Government can use as well as 
those of our allies.
    Mr. Manzullo. Thank you very much for the testimony and 
this subcommittee is adjourned.
    [Whereupon, at 12:36 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            <F-dash>\<Register><pound><variable><star><box>_
                     <because><F-dash><Register>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
